Case 19-69, Document 158, 05/26/2020, 2846923, Pagel of 1

N.D.N.Y.
15-cv-553
Hurd, J.
Baxter, M.J.

United States Court of Appeals
FOR THE

SECOND CIRCUIT

At a stated term of the United States Court of Appeals for the Second
Circuit, held at the Thurgood Marshall United States Courthouse, 40 Foley Square,
in the City of New York, on the 26th day of May, two thousand twenty.
Present:
Barrington D. Parker,
Denny Chin,
Susan L. Carney,
Circuit Judges.
Scott Myers,
Plaintiff-Appellant,
19-69

v.
Patrolman Rowell, et al.,
Defendants-Appellees.

Appellant, pro se, moves to file supplemental exhibits, for judgment in his favor, summary
judgment, and remand to the district court. Upon due consideration, it is hereby ORDERED that
the appeal is DISMISSED because it “lacks an arguable basis either in law or in fact.” Neitzke v.
Williams, 490 U.S. 319, 325 (1989); see also Pillay v. INS, 45 F.3d 14, 17 (2d Cir. 1995) (per
curiam). It is further ORDERED that the motions are DENIED as moot.
FOR THE COURT:
Catherine O’Hagan Wolfe, Clerk of Court

OPINIONS BELOW
Final order denying
UNITED STATES COURT OF APPEALS
FOR THE
SECOND CIRCUIT

At a stated term of the United States Court of Appeals for
the Second Circuit, held at the Thurgood Marshall United States
Courthouse, 40 Foley Square, in the City of New York, on the 27th
day of August, two thousand twenty.

Scott Myers,
Plaintiff-Appellant,
ORDER
v.
Patrolman Rowell, Charles Bucca, Greg
Seeley, Alan Frisbee, Donna Baeckmann,
Michael Spitz, Terry Wilhelm, Bobby
Haines,

Docket No:
19-69

Defendants-Appellees.

Appellant, Scott Myers, filed a motion for panel reconsideration,
or, in the alternative, for reconsideration en banc. The panel
that determined the appeal has considered the request for
reconsideration, and the active members of the Court have
considered the request for reconsideration en banc.
IT IS HEREBY ORDERED that the motion is denied.
FOR THE COURT:
Catherine O'Hagan Wolfe,
Clerk

P 20

Additional material
from this filing is
available in the
Clerk's Office.

